     Department of Homeland Security





               FEMA Public Assistance Grant
           Funds Awarded to Dawson Public Power
                District, Lexington, Nebraska




DD-12-08                                          April 2012

                                                                              Office ofInspector General

                                                                              U.S. Department of Homeland Security
                                                                              Washington, DC 20528




                                                                              Homeland
                                                                              Security
                                                                                  APR 1 1 2012

MEMORANDUM FOR:


                            (,............. ...
                                            ,




FROM:
                                                  Assistant Inspector G eral
                                                  Office of Emergency Management Oversight

SUBJECT:                                          FEMA Public Assistance Grant Funds Awarded to
                                                  Dawson Public Power District, Lexington, Nebraska
                                                  FEMA Disaster Number 1674-DR-NE
                                                  Audit Report DD-12-08

We audited public assistance grant funds awarded to the Dawson Public Power District in
Lexington, Nebraska (Dawson) (Public Assistance Identification Number 000-U65NA-00). Our
audit objective was to determine whether Dawson accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to federal regulations and
FEMA guidelines.

The Nebraska Emergency Management Agency (NEMA), a FEMA grantee, awarded Dawson
$10.45 million for damages caused by severe winter storms from December 19, 2006, through
January 1,2007. The award provided 75% FEMA funding for five large projects and two small
projects totaling $10.45 million. l The audit covered the period from December 19,2006, to
September 21, 2011, the cutoff date of our audit, and included a review of three large projects
totaling $10.17 million, or 97.3% of the total award (see Exhibit). All projects were closed as of
our cutoff date.

We conducted this performance audit between September 2011 and March 2012 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. We conducted this audit
according to the statutes, regulations, and FEMA policies and guidelines in effect at the time of
the disaster.


1   Federal regulations in effect at the time of the disaster set the large project threshold at $59,700.

                                                                   1
We interviewed FEMA, NEMA, and Dawson officials; reviewed judgmentally selected project
costs (generally based on dollar value); and performed other procedures considered necessary to
accomplish our objective. We did not assess the adequacy of Dawson’s internal controls
applicable to grant activities because it was not necessary to accomplish our audit objective. We
did, however, gain an understanding of Dawson’s method of accounting for disaster-related costs
and its procurement policies and procedures.


                                    RESULTS OF AUDIT

Generally, Dawson accounted for and expended FEMA grant funds according to federal
regulations and FEMA guidelines. However, Dawson inadvertently claimed $26,021 of costs
that were not related to the disaster. Therefore, we question $26,021 as ineligible.

Finding: Ineligible Contract Costs

Owing to a clerical error, Dawson claimed $26,021 of costs not related to the disaster. Although
Dawson found and corrected the error in its accounting system, it did not notify NEMA or
FEMA of the correction. To be eligible for financial assistance, work must be required as a
result of a major disaster event (44 CFR 206.223(a)(1)). Therefore, we question $26,021 as
ineligible.


                                   RECOMMENDATION

We recommend that the Regional Administrator, FEMA Region VII:

   Recommendation: Disallow $26,021 ($19,516 federal share) of ineligible costs not related
   to the disaster.


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Dawson officials during our audit and included their
comments in this report, as appropriate. We also provided a draft report in advance to FEMA,
NEMA, and Dawson officials and discussed it at exit conferences held with FEMA, NEMA, and
Dawson officials on March 6, 2012. All officials agreed with our finding and recommendation.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for the recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendation will be
considered open and unresolved.



                                                2

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination. Significant contributors to this report were Tonda Hadley,
Christopher Dodd, Patti Smith, and Doug Denson.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.

cc:	   Administrator, FEMA
       Director, Risk Management and Compliance, FEMA Office of Chief Financial Officer
       Audit Liaison, FEMA Region VII
       Audit Liaison, FEMA (Job Code G-11-062)
       Audit Liaison, DHS




                                               3

                                                              EXHIBIT

       Schedule of Projects Awarded and Audited

    Dawson Public Power District, Lexington, Nebraska

       December 19, 2006, to September 21, 2011

         FEMA Disaster Number 1674-DR-NE




Project       Award              Audited         Total
Number        Amount             Amount        Questioned

  484          $9,413,762         $9,413,762        $26,021
  491             406,247            406,247              0
  487             349,951            349,951              0
  492             197,897                  0              0
  283              65,003                  0              0
  284              18,004                  0              0
  285               3,077                  0              0
Totals        $10,453,941        $10,169,960        $26,021




                            4

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
